No. _____________

In The

Supreme Court of the United States
NETSCOUT SYSTEMS, INC., NETSCOUT SYSTEMS TEXAS, LLC,
fka TEKTRONIX TEXAS, LLC dba TEKTRONIX COMMUNICATIONS,

Petitioners,

v.
PACKET INTELLIGENCE LLC,

Respondent.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the PETITION FOR
A WRIT OF CERTIORARI AND SUPPLEMENTAL APPENDIX in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.l(b), being
prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 8,955 words, excluding the parts that are exempted by
Supreme Court Rule 33.l(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.

Dated: March 15, 2021

WILLIAM R. PETERSON
Counsel of Record
MORGAN, LEWIS &
BOCKIUS LLP
1000 Louisiana Street, Suite 4000
Houston, Texas 77002
(713) 890-5188
william.peterson@morganlewis.com
Counsel for Petitioners

